Findings

       We found that the Plan was generally regarded at the Headquarters (HQ) level as an early
description of the programs and did not necessarily reflect current planning or conditions.
Conversely, staff in the regions considered the Plan a requirements document for their efforts.

        We found that project managers and contracting officers in selected regions were
confident that the Recovery Act obligation deadline of September 30, 2010, could be met but
that interim milestones leading to that deadline were changed with little documented support. If
interim milestones are too flexible, we are concerned that the bureau may not meet its important
accelerated milestone of mobilizing projects by the Secretary’s June 30, 2010 goal.

         We found many systems in use for tracking milestones. HQ keeps a monthly status
report in the form of an Excel spreadsheet, regions are implementing an automated system
(SharePoint) requiring users to justify milestone changes, and the Plan describes an enterprise
planning system in which milestones are set at the beginning of the year and rarely changed.

        At HQ, we reviewed the program manager’s monthly Excel status report and found
several “red” projects, meaning the milestones were behind their target dates. We received a
copy of the status report several weeks later and all interim milestones were rated “green,”
meaning the dates were on target. FWS did not appear to be using a rigorous control process that
justified such changes.

       We were impressed by the “Sharepoint” system being implemented in the regions, its
rigorous change control procedures and its potential for becoming the bureau’s “official”
tracking system.

        We found that many projects are being carried out with hurricane relief and Recovery Act
funds, during our visit to Region 2 on December 2, 2009. We also learned that project managers
are responsible for all aspects of their projects, including planning, preparing work statements,
and inspecting. Combining relief and Recovery Act monies raises concerns about the tracing and
accounting of the funds, and combining program managers’ duties increases the risk of fraud and
waste.

       We reviewed plans for a new visitor’s center during a December 3, 2009 visit to the
Rocky Mountain Arsenal. We noted that the project will be funded by the Recovery Act and
revenue from land sales. This again raises a concern regarding accountability and traceability of
funds. We also found that ongoing maintenance funds for the new visitor center were requested,
but have not been secured. Failing to secure maintenance funds could add to the FWS deferred-
maintenance backlog or jeopardize operation of the center.

Recommendations:

We recommend that the Director, FWS:

   1.	 Ensure milestone completion dates are consistent in different tracking systems and that
       formal change-control processes are used to modify them.
                                                                                                    2
    2.	 Ensure that funds are segregated appropriately when Recovery Act and non-Recovery
        Act funds support the same project.

    3.	 Ensure that sufficient funding is budgeted for ongoing maintenance of new facilities built
        with Recovery Act funds.

cc: 	   Deputy Secretary, Department of the Interior
        Assistant Secretary – Policy, Management, and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Audit Liaison, Fish and Wildlife Service
        Recovery Coordinator, Fish and Wildlife Service
        Bureau Procurement Chief, Fish and Wildlife Service
        Region 2, ARRA Implementation Lead
        Region 6, ARRA Implementation Lead
        Refuge Director, Rocky Mountain Arsenal
        Fish and Wildlife Service Program Manager, ARRA Construction




                                                                                                 3
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
